Audit Report




OIG-07-004
Audit of the Bureau of Engraving and Printing’s Fiscal Years
2006 and 2005 Financial Statements


November 1, 2006




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             November 1, 2006


            MEMORANDUM FOR LARRY R. FELIX, DIRECTOR
                            BUREAU OF ENGRAVING AND PRINTING

            FROM:                   Michael Fitzgerald
                                    Acting Deputy Assistant Inspector General
                                       for Financial Management and Information
                                       Technology Audits

            SUBJECT:                Audit of the Bureau of Engraving and Printing’s
                                    Fiscal Years 2006 and 2005 Financial Statements


            I am pleased to transmit the attached audited Bureau of Engraving and Printing
            (BEP) financial statements for fiscal years 2006 and 2005. We contracted with the
            independent certified public accounting firm KPMG LLP, an Independent Public
            Accountant (IPA), to audit the financial statements of BEP as of
            September 30, 2006 and for the year then ended. The accompanying financial
            statements of BEP as of September 30, 2005, and for the year then ended were
            audited by Ernst & Young LLP, another IPA, whose report dated October 25, 2005,
            expressed an unqualified opinion. Both contracts required that the audits be
            performed in accordance with generally accepted government auditing standards;
            applicable provisions of Office of Management and Budget Bulletin No. 06-03,
            Audit Requirements for Federal Financial Statements; and the GAO/PCIE Financial
            Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters

            In its audit, KPMG LLP found that the financial statements were fairly presented, in
            all material respects, in conformity with accounting principles generally accepted in
            the United States of America. KPMG LLP also found that BEP management’s
            assertion that it maintained effective internal control over financial reporting as of
            September 30, 2006 was fairly stated in all material respects. However,
            KPMG LLP’s Report on Internal Control Over Financial Reporting contained one
            reportable condition related to controls over inventory held by others, which was
            not considered a material weakness. KPMG LLP found no instances of reportable
            noncompliance with laws and regulations tested.
KPMG LLP also issued a management letter dated October 27, 2006, discussing
other matters involving internal control over financial reporting and its operation
that were identified during the audit but were not required to be included in the
auditors’ reports.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or BEP management’s assertion on the
effectiveness of internal control over financial reporting, or a conclusion on
compliance with laws and regulations. KPMG LLP is responsible for the attached
auditors’ reports dated October 27, 2006 and the conclusions expressed in the
reports. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789.

Attachment
 THE DEPARTMENT OF THE TREASURY
BUREAU OF ENGRAVING AND PRINTING


           Financial Statements


 Years ended September 30, 2006 and 2005


(With Independent Auditors’ Reports Thereon)
                                         THE DEPARTMENT OF THE TREASURY
                                        BUREAU OF ENGRAVING AND PRINTING
                                                 FINANCIAL STATEMENTS
                                     FOR THE YEARS ENDED SEPTEMBER 30, 2006 AND 2005

                                                                  TABLE OF CONTENTS




INDEPENDENT AUDITORS’ REPORT .................................................................................................................1


FINANCIAL STATEMENTS ...................................................................................................................................3

     Balance Sheets .......................................................................................................................................................3
     Statements of Operations and Cumulative Results of Operations .........................................................................4
     Statements of Cash Flows ......................................................................................................................................5
     Notes to the Financial Statements ..........................................................................................................................6

MANAGEMENT’S REPORT
ON INTERNAL CONTROL OVER FINANCIAL REPORTING .......................................................................15

INDEPENDENT AUDITORS’ REPORT
ON INTERNAL CONTROL OVER FINANCIAL REPORTING .......................................................................16

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE
AND OTHER MATTERS .......................................................................................................................................19
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                  Independent Auditors’ Report


The Inspector General, Department of the Treasury and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

We have audited the accompanying balance sheet of the Bureau of Engraving and Printing
(Bureau) as of September 30, 2006, and the related statements of operations and cumulative
results of operations and cash flows (hereinafter referred to as “financial statements”) for the year
then ended. These financial statements are the responsibility of the Bureau’s management. Our
responsibility is to express an opinion on these financial statements based on our audit. The
accompanying financial statements of the Bureau as of and for the year ended September 30,
2005, were audited by other auditors whose report thereon, dated October 25, 2005, expressed an
unqualified opinion on those financial statements.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 06-03, Audit Requirements for Federal Financial Statements.
Those standards and OMB Bulletin No. 06-03 require that we plan and perform the audit to
obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements, assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall financial statement presentation.
We believe that our audit provides a reasonable basis for our opinion.

In our opinion, the 2006 financial statements referred to above present fairly, in all material
respects, the financial position of the Bureau of Engraving and Printing as of September 30, 2006,
and the results of its operations and its cash flows for the year then ended in conformity with U.S.
generally accepted accounting principles.

As discussed in Note 2 to the financial statements, effective October 1, 2005, the Bureau adopted
Financial Accounting Standards Board Interpretation No. 47, Accounting for Conditional Asset
Retirement Obligations.

We have also examined management’s assertion that the Bureau maintained effective internal
control over financial reporting as of September 30, 2006, and have issued our report thereon
dated October 27, 2006. That report is an integral part of an audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this report in assessing
the results of our audit.




                                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                a member of KPMG International, a Swiss cooperative.
In accordance with Government Auditing Standards, we have also issued our report dated
October 27, 2006, on our tests of the Bureau’s compliance with certain provisions of laws,
regulations, contracts, and other matters. The purpose of that report is to describe the scope of
our testing of compliance and the results of that testing, and not to provide an opinion on
compliance. That report is an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of
our audit.




October 27, 2006




                                               2
                                  THE DEPARTMENT OF THE TREASURY
                                 BUREAU OF ENGRAVING AND PRINTING
                                                    Balance Sheets
                                           As of September 30, 2006 and 2005


                                                                                    2006           2005
                                                                                       (In Thousands)
ASSETS
Current assets
  Cash (Note 3)                                                                $   164,729   $ 183,250
  Accounts receivable (Note 10)                                                     33,032      42,038
  Inventories, net (Note 4)                                                         83,516      75,246
  Prepaid expenses                                                                   4,321       3,675
Total current assets                                                               285,598       304,209


Property and equipment, net (Note 5)                                               250,364       249,403
Other assets, net (Note 6)                                                          17,525        17,322
Total assets                                                                   $   553,487   $ 570,934


LIABILITIES AND EQUITY
Liabilities
Current liabilities (Notes 7 and 8)
   Accounts payable                                                            $    11,818   $    13,564
   Accrued liabilities                                                              29,765        27,815
   Advances                                                                            899         3,881
Total current liabilities                                                           42,482        45,260

Workers' compensation liability (Note 8)                                            59,007        65,097
Total liabilities                                                                  101,489       110,357

Commitments and contingencies (Note 12)

Equity
  Invested capital                                                                  32,435        32,435
  Cumulative results of operations                                                 419,563       428,142
Total equity                                                                       451,998       460,577
            Total liabilities and equity                                       $   553,487   $ 570,934


See accompanying notes to the financial statements.




                                                          3
                                THE DEPARTMENT OF THE TREASURY
                               BUREAU OF ENGRAVING AND PRINTING
                                         Statements of Operations and
                                       Cumulative Results of Operations
                               For the Years Ended September 30, 2006 and 2005


                                                                                   2006          2005
                                                                                      (In Thousands)
Revenue from sales (Note 10)                                                 $ 477,297      $   512,064
Cost of goods sold                                                               421,637        472,478
Gross margin                                                                      55,660         39,586

Operating costs:
  General and administrative expenses                                             53,489         50,465
  Research and development                                                        10,750          7,648
                                                                                  64,239         58,113

Excess of expenses over revenues                                                  (8,579)       (18,527)

Cumulative results of operations at beginning of year                          428,142          446,669
Cumulative results of operations at end of year                              $ 419,563      $   428,142


See accompanying notes to the financial statements.




                                                        4
                                   THE DEPARTMENT OF THE TREASURY
                                  BUREAU OF ENGRAVING AND PRINTING
                                          Statements of Cash Flows
                              For the Years Ended September 30, 2006 and 2005


                                                                                 2006           2005
                                                                                    (In Thousands)
Cash flows from operating activities
Excess of expenses over revenues                                          $      (8,579)   $   (18,527)
  Adjustments to reconcile excess of expenses over revenues
    to net cash provided by operating activities:
    Depreciation                                                                 32,484         34,618
    Loss from disposal of property and equipment                                    104            993
  Changes in assets and liabilities
    Decrease in accounts receivable                                               9,006          2,569
    (Increase) decrease in inventories                                           (8,270)        28,145
    Increase in prepaid expenses                                                   (646)          (527)
    Increase in other assets                                                       (203)          (729)
    Decrease in accounts payable                                                 (1,746)        (5,703)
    Increase (decrease) in accrued liabilities                                    1,950         (3,165)
    (Decrease) increase in advances                                              (2,982)         3,420
    Decrease in workers' compensation costs                                      (6,090)        (2,800)
       Net cash provided by operating activities                                 15,028         38,294


Cash flows from investing activities
Purchases of property and equipment                                             (33,549)       (23,972)
        Net cash used in investing activities                                   (33,549)       (23,972)

Net (decrease) increase in cash                                                 (18,521)        14,322
Cash at beginning of year                                                       183,250        168,928
Cash at end of year                                                       $     164,729    $   183,250


See accompanying notes to the financial statements.




                                                      5
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements
                                 September 30, 2006 and 2005



1. Reporting Entity

The Bureau of Engraving and Printing (Bureau), a component of the United States (U.S.)
Department of the Treasury, is the U.S. Government's security printer. The Bureau designs and
produces U.S. currency. The Bureau also advises and assists Federal agencies in the design and
production of other U.S. Government documents requiring counterfeit deterrence or secure
production.

The Bureau operates under basic authorities conferred by the Act of July 11, 1862, (12 Stat. 532;
also, 31 U.S.C. 5114) and other laws and regulations. In accordance with the provisions of
Public Law 81-656, effective August 4, 1950, the operations of the Bureau are financed by
means of a revolving fund. This fund is reimbursed through billings to the Bureau's customers
for products delivered. Public Law 95-81 authorized the Bureau to include in its product prices
an amount to provide funding for the acquisition of capital equipment and future working
capital. Invested capital represents the historical value of the initial contribution made by the
Federal Government.

The financial statements represent the consolidation of two Federal revolving funds. The
majority of all financial transactions (approximately 99%) are contained in the Bureau of
Engraving and Printing Revolving Fund, which finances Bureau operations. The other revolving
fund, the Mutilated Currency Revolving Fund, is used to redeem damaged paper currency
received from the public. All significant balances and transactions between the funds have been
eliminated in consolidation.

2. Summary of Significant Accounting Policies

Basis of Accounting

The Bureau has historically prepared its financial statements in conformity with U.S. generally
accepted accounting principles, based on accounting standards issued by the Financial
Accounting Standards Board (FASB), the private-sector standards-setting body. Under such
standards, the Bureau prepares its financial statements using the full accrual basis of accounting
under which revenues are recognized when earned and expenses are recognized as incurred,
regardless of when cash is exchanged.

The Federal Accounting Standards Advisory Board (FASAB) has been designated by the
American Institute of Certified Public Accountants as the standards-setting body for financial
statements of federal government entities, with respect to the establishment of generally
accepted accounting principles. FASAB has indicated, however, that financial statements
prepared based upon accounting standards published by the FASB may also be regarded as in
conformity with generally accepted accounting principles for those federal agencies, such as the
Bureau, that have issued financial statements based upon FASB accounting standards in the past.




                                                6                                      (continued)
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements
                                 September 30, 2006 and 2005

Accordingly, consistent with historical reporting, the Bureau’s financial statements are presented
in accordance with accounting standards published by the FASB.

Cash

Cash represents the aggregate amount of the Bureau’s funds held on deposit with the U.S. Treasury
and are available to pay liabilities. The Bureau historically does not maintain significant cash
balances in commercial bank accounts, and owns no cash equivalents.

Equipment and Spare Parts

In July 2005, the Bureau permanently ceased production of postage stamps for the U.S. Postal
Service. Postage stamp related production equipment and spare parts were disposed of in
accordance with applicable U.S. Government regulations.

Estimation Process

The preparation of financial statements in accordance with U.S. Generally Accepted Accounting
Principles (GAAP) requires management to make estimates and assumptions that affect the reported
amounts of assets and liabilities and related revenues and expenses. Those estimates most
significant to the Bureau’s financial statements are the actuarial estimates made by the Department
of Labor (DOL) in arriving at the liabilities for workers’ compensation, allowances for
obsolescence, the useful lives of property and equipment, the likelihood of losses associated with
contingent liabilities, and certain accrued expenses at the date of the financial statements. Such
estimates and assumptions could change in the future as more information becomes known, which
could impact the amounts reported and disclosed herein.

Inventories

Inventories are stated at standard cost, except for finished goods inventories, which are stated at
weighted average unit cost. Both methods approximate actual cost. Cost elements included in
work-in-process and finished goods inventories are direct materials, direct labor, manufacturing
overhead, and manufacturing support.

Property and Equipment

Property and equipment are recorded at cost. Major alterations and renovations are capitalized,
while maintenance and repair costs are charged to expense as incurred. The capitalization threshold
is $50,000. The Bureau capitalizes all cost associated with new construction and building
improvements.

The Bureau occupies and uses buildings and land owned by the Department of the Treasury. In
accordance with the Act establishing the revolving fund, the Bureau is not charged for the use of the
buildings or land, but is responsible for maintenance and repair of all buildings and land




                                                7                                      (continued)
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements
                                 September 30, 2006 and 2005

improvements. The land and building shell for the Bureau's Western Currency Facility were
donated by the City of Fort Worth, Texas to the Department of the Treasury. See Note 5 for details.

Other Assets

Other assets consist principally of machine repair parts and tools, which are used in the production
of the Bureau's products. Other assets are stated at actual cost, net of reserve for obsolescence.

Depreciation

Depreciation of property and equipment is calculated using the straight-line method over the
following estimated useful lives:

        Machinery and equipment                                            3 - 15 years
        Building improvements                                              3 - 40 years
        Information technology (IT) equipment and software                 3 - 5 years
        Office machines                                                    5 - 10 years
        Furniture and fixtures                                             5 - 10 years
        Motor vehicles                                                     3 - 9 years

Employee Retirement Plans

Bureau employees participate in the contributory Civil Service Retirement System (CSRS) or
Federal Employees' Retirement System (FERS), to which the Bureau and employees make
contributions according to plan requirements. Consistent with reporting under multi-employer
pension plans, the Bureau does not report CSRS and FERS assets, accumulated plan benefits or
future liabilities, if any, applicable to its employees. This data is reported for plan participants
by the Office of Personnel Management (OPM).

Postretirement Benefits Other than Pensions

Postretirement benefits for former Bureau employees, specifically health care costs and life
insurance, are administered and paid by OPM through appropriations received from the U.S.
Government. The Bureau does not reimburse OPM for these payments. The Bureau's financial
statements do not include the cost of employee postretirement benefits paid by OPM, or the
actuarial liability for such benefits.

Workers’ Compensation Costs

The Federal Employee Compensation Act (FECA) provides income and medical cost protection
to covered Federal civilian employees injured on the job, employees who have incurred a work-
related occupational disease and beneficiaries of employees whose death is attributable to a job-
related injury or occupational disease. Claims incurred for benefits for the Bureau's employees
under FECA are administered by DOL and are ultimately paid by the Bureau.




                                                 8                                        (continued)
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements
                                 September 30, 2006 and 2005


The FECA liability consists of two components. The first component, the accrued FECA
liability, is based on actual claims paid by DOL but not reimbursed by the Bureau. The Bureau
reimburses DOL for the amount of actual claims normally within one to two years after payment
is made by DOL. As a result, the Bureau recognizes a current and non-current liability for actual
claims paid by DOL, to be reimbursed by the Bureau.

The second component, the actuarial FECA liability, is the estimated liability for future benefit
payments. These future workers' compensation estimates were generated from an application of
actuarial procedures developed to estimate the liability for future FECA benefits. The actuarial
liability for future worker's compensation benefits includes the expected liability for death,
disability, medical and miscellaneous costs for approved compensation cases, plus a component
for incurred but not reported claims. The liability is determined using a method that utilizes
historical benefit payment patterns related to a specific incurred period to predict the ultimate
payments related to that period. These annual benefit payments have been discounted to present
value using OMB’s economic assumptions for 10-year Treasury notes and bonds, which resulted
in a discount rate of 5.17% in year one and 5.31% there after. Based on information provided by
DOL, the Department of the Treasury allocated the overall liability to Treasury components
based on past claims paid.

Annual, Sick and Other Leave

Annual leave is accrued as a liability when earned and the accrual is reduced as leave is taken.
The balance in this accrued liability account reflects current pay rates.

Sick leave and other types of non-vested leave are expensed as the leave is taken.

Revenue Recognition

Revenue from sales to the Federal Reserve System is recognized when finished goods
satisfactorily pass all Bureau quality control standards and are delivered to the on-site Federal
Reserve Depository vaults. Finished goods are released for shipment in accordance with
customer requirements. Revenue from the sale of uncut currency to the public is recognized at
the time the product is shipped. The Bureau does not record an allowance for returns because of
a historically negligible return rate.

Research and Development Costs and Advertising Costs

Research and development costs and advertising costs are expensed as incurred. Advertising
costs amounted to $5.9 million and $7.4 million in the years ended September 30, 2006 and
2005, respectively.




                                                9                                     (continued)
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements
                                 September 30, 2006 and 2005

Tax Status

The Bureau is a Federal entity, and therefore is not subject to Federal, state, or local income
taxes. Accordingly, no provision for income taxes is required in the accompanying financial
statements.

Commitments and Contingencies

Liabilities from loss contingencies, including environmental remediation costs not within the
scope of FASB Statement No. 143, Accounting for Asset Retirement Obligations, arising from
claims, assessments, litigation, fines and penalties, and other sources, are recorded when it is
probable that a liability has been incurred and the amount of the assessment and/or remediation
can be reasonably estimated. Loss contingencies that do not meet these criteria, but are
reasonably possible and estimable are not accrued, but are disclosed in Note 12.

Recently Adopted Accounting Standards

In March 2005, the FASB issued Interpretation No. 47, Accounting for Conditional Asset
Retirement Obligations (FIN 47), which requires a liability to be accrued if the reporting entity
has a legal obligation to perform asset retirement activities and a reasonable estimate of the fair
market value of the obligation can be made at fiscal year-end. FIN 47 also provides guidance as
to when an entity would have sufficient information to reasonably estimate the fair value of an
asset retirement obligation. The Bureau adopted the provisions of FIN 47 effective October 1,
2005. However, because the Bureau has no conditional asset retirement obligations that meet
the above criteria, the adoption of FIN 47 had no effect on the Bureau’s financial statements.

3. Cash

The year-end cash balances by fund are as follows as of September 30, 2006 and 2005:

                                                                        2006          2005
                                                                          (In Thousands)
Bureau of Engraving and Printing
  Revolving Fund                                                 $    163,992     $ 182,510
Mutilated Currency Revolving Fund                                         737           740
Total                                                            $    164,729     $ 183,250



The balance in the mutilated currency revolving fund, consisting of mutilated currency
submitted by the public for redemption, is offset by a liability to the public.




                                                10                                      (continued)
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                                  Notes to the Financial Statements
                                   September 30, 2006 and 2005

4. Inventories, net

Inventories consist of the following as of September 30, 2006 and 2005:

                                                                        2006            2005
                                                                            (In Thousands)
Raw material and supplies                                         $     33,019     $    32,815
Work-in-process                                                         32,688          28,818
Finished goods - currency                                                2,403              —
Finished goods - uncut currency                                         15,406          13,613
Total                                                             $     83,516     $    75,246


The allowance for inventory obsolescence was $615 thousand and $741 thousand, at September
30, 2006 and 2005, respectively.

5. Property and Equipment, net

Property and equipment consist of the following as of September 30, 2006 and 2005:


                                                                          2006         2005
                                                                            (In Thousands)
Machinery and equipment                                               $ 416,782    $ 393,518
Building and land improvements                                          215,851      206,575
IT equipment and software                                                17,224       14,592
Office machines                                                           1,103        1,201
Furniture and fixtures                                                    1,385        1,385
Donated assets - art work                                                   125          125
Motor vehicle                                                               212          212
                                                                        652,682      617,608
Less accumulated depreciation                                           411,486      385,623
                                                                        241,196      231,985
Construction-in-progress                                                  9,168       17,418
Net property and equipment                                            $ 250,364    $ 249,403


Deprecation expense for the years ended September 30, 2006 and 2005, was $32.5 million and
$34.6 million, respectively.

The Bureau occupies and uses buildings and land owned by the Department of the Treasury.
The land and building shell for the Fort Worth, Texas facility were donated by the City of Fort
Worth to the Department of the Treasury in 1987, which holds the title thereto. At the time of




                                                 11                                   (continued)
                          THE DEPARTMENT OF THE TREASURY
                         BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements
                                September 30, 2006 and 2005

donation, the land had an appraised value of $1.5 million and the building shell cost was $5.6
million. In accordance with the provisions of Public Law 81-656, Bureau financial statements
include only the costs to build out the facility.

6. Other Assets, net

Other assets consist principally of machine repair parts and tools. The allowance for
obsolescence for these parts and tools for the years ended September 30, 2006 and 2005, was
$5.1 million and $4.8 million, respectively.

7. Current Liabilities

All current liabilities are funded and consist of the following as of September 30, 2006 and
2005:

                                                                        2006         2005
                                                                          (In Thousands)
 Intragovernmental                                                 $    5,269     $    7,222
 Other                                                                 37,213         38,038
 Total                                                             $   42,482     $   45,260



 Accrued current liabilities consist of the following as of September 30, 2006 and 2005:

                                                                        2006         2005
                                                                          (In Thousands)
 Payroll                                                           $   13,924     $   12,709
 Annual Leave                                                          10,315         10,183
 Workers' compensation                                                  4,766          4,420
 Other                                                                    760            503
 Total                                                             $   29,765     $   27,815



8. Workers’ Compensation Liability

Claims incurred and paid by DOL as of September 30, 2006 and 2005, but not yet reimbursed to
DOL by the Bureau, are approximately $10.2 million and $10.1 million, of which $4.7 million
and $4.4 million represents a current liability, as of September 30, 2006 and 2005, respectively.
The Bureau will reimburse DOL for these claims in the next two years. The Bureau's estimated
non-current actuarially derived future workers’ compensation liability was $53.5 million and
$59.4 million as of September 30, 2006 and 2005, respectively.




                                               12                                     (continued)
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements
                                September 30, 2006 and 2005

9. Employee Retirement Plans and Postretirement Benefits Other than Pensions

Employer contributions to the retirement plans for 2006 and 2005 are $15.9 million and $15.7
million, respectively. The CSRS employer contribution rate for fiscal years 2006 and 2005 was
7.0%. The FERS agency contribution rate for fiscal years 2006 and 2005 was 11.2%. The cost
of providing the CSRS and FERS benefits is more than the amounts contributed by the Bureau
and the employees to OPM. The additional cost of providing benefits, including the cost
financed by OPM, which is not included in the Bureau's Statements of Operations, totaled $23.7
million and $23.6 million in 2006 and 2005, respectively.

OPM paid costs totaling $10.9 million and $10.5 million for the Federal Employees Health
Benefits Program (FEHBP) and Federal Employees Group Life Insurance (FEGLI) programs in
2006 and 2005, respectively. These costs are not included in the Bureau's Statements of
Operations.

10. Related Party Transactions and Concentration of Revenue

The Bureau’s principal customers are other Federal and quasi-Federal governmental
organizations. During 2006 and 2005, the Bureau’s sales to these organizations as well as the
outstanding amounts due from them as of September 30, 2006 and 2005, are reflected in the
following table:
                                       Sales for the year ended          Accounts Receivable as of
                                            September 30                      September 30
                                        2006            2005              2006            2005
Federal Reserve System:
 Currency Production                $ 444,297        $   476,762     $   30,136       $     40,630
 Mutilated Currency                     3,760              3,506            931                857
United States Postal Service            2,648             17,335          1,331                  3
Other Federal Agencies                  3,268              3,742            634                548
Total                                 453,973            501,345         33,032             42,038

Total with the Public                  23,324             10,719             —                  —
Total                               $ 477,297        $   512,064     $   33,032       $     42,038




In 2001, the Bureau and the U.S. Postal Service entered into an agreement that gradually phased
out production of postage stamps at the Bureau over a five-year period ending in 2005, with only
delivery and storage services continuing through 2006.




                                                13                                   (continued)
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements
                                September 30, 2006 and 2005

Other Federal sales revenues are derived principally from the sale of security printing products
to U.S. Government agencies and fees charged to the Federal Reserve for the redemption of
mutilated currency.

11. Principal Suppliers

The Bureau is dependent upon sole suppliers for distinctive currency paper, certain advanced
counterfeit deterrent inks and currency paper fibers.

12. Commitments and Contingencies

The Bureau is a party in various administrative proceedings, legal actions, and claims brought
against the Federal Government by employees, contractors, and other parties. Contingencies for
litigations involving the Bureau, where the risk of loss was reasonably possible, were
approximately $2.9 million and $0 as of September 30, 2006 and 2005, respectively.

Since the risk of loss for these litigations was not probable, the Bureau did not record any
liability. Management believes that the ultimate resolution of these litigations will not have a
material impact on reported results of operations, financial position and cash flows.

Judgments resulting from litigation against the Bureau are paid by the Department of the
Treasury Judgment Fund. The Bureau is required to reimburse the Judgment Fund for paid
claims related to employee discrimination and contract disputes. There were no amounts due to
the Judgment Fund in fiscal years 2006 and 2005.

In 2006, the Bureau contracted to purchase currency production equipment, incorporating
automated inspection and packaging capabilities, costing approximately $34 million that will be
delivered in 2007.

The Bureau does not carry commercial insurance on its physical assets because by law the
Federal Government is self-insured.

The Bureau has not entered into any long-term leasing arrangements.

13. Staffing

In 2005, in order to better match facility staffing and production requirements, the Bureau
offered voluntary employee separation incentives. As a result, in 2005, approximately 100
employees accepted the incentives and the Bureau incurred and paid the related expenses of
approximately $2.6 million. No voluntary employee separation incentives were offered or paid
in 2006.




                                               14
                         DEPARTMENT OF THE TREASURY
                                          AND PRINTING
                          BUREAUOF ENGRAVING
                                                D.C. 20228
                                        WASHINGTON,
                    Management's Report on Internal Control Over Financial Reporting

We as management of the Bureau of Engraving and Printing (Bureau) are responsible for establishing
and maintaining adequate internal control over financial reporting and for our assertion on the
effectiveness of internal conbol over financial reporting. The Bureau's internal control over financial
reporting is designed to provide reasonable assurance regarding the reliability of financial reporting
and the preparation of financial statements for external purposes in accordance with U.S. generally
accepted accounting principles.
The Bureau's internal control over financia1 reporting includes those policies and procedures that:
    pertain to the maintenance of records that, in reasonable detail, accurately and fairly reflect our
    transactions and dispositions of the assets of the Bureau;
    provide reasonable assurance that our transactions are recorded as necessary to permit preparation
    of our financial statements in accordance with U.S. generally accepted accounting principles, and
    that receipts and expenditures of the Bureau are being made in accordance with authorizations of
    management of the Bureau; and
    provide reasonable assurance regarding prevention or timely detection of unauthorized acquisition,
    use, or disposition of the Bureau's assets that could have a material effect on the financial
    statements.
Because of its inherent limitations, internal control over financial reporting may not prevent or detect
misstatements. Also, projections of any evaluation of effectiveness to future periods are subject to the
risk that internal controls may become inadequate because of changes in conditions, or that the degree
of compliance with the policies or procedures may deteriorate.
We assessed the effectiveness of the Bureau's internal conk01 over financial reporting as of September
30,2006. In making this assessment, the Bureau used the criteria established in the Internal Control -
Inlegred Framework issued by the Committee of Sponsoring Organizations of the Treadway
Commission (COSO).
Based on our assessment and those criteria, we conclude that the Bureau maintained effective internal
control over financial reporting as of September 30,2006.
KFMG LLP, an independent public accounting firm, has issued their reports, included herein, on (1)
our financial statements; (2) our compliance with certain provisions of laws, regulations, and contracts
and other matters; and (3) our assertion on the effectiveness of internal control over financial reporting.




                Lmry R Felix                                        Leonard R OIijaP
                    Director                                     Chief Financial Oflcer


October 27,2006
Washington, DC
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




        Independent Auditors’ Report on Internal Control Over Financial Reporting

To the Inspector General, Department of the Treasury, and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:


We have examined management’s assertion, included in the accompanying “Management’s
Report on Internal Control Over Financial Reporting,” that the Bureau of Engraving and Printing
(Bureau) maintained effective internal control over financial reporting as of September 30, 2006,
based on the criteria established in Internal Control – Integrated Framework issued by the
Committee of Sponsoring Organizations (COSO) of the Treadway Commission. The Bureau’s
management is responsible for maintaining effective internal control over financial reporting and
for its assertion on the effectiveness of internal control over financial reporting. Our
responsibility is to express an opinion on management’s assertion based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants and the standards applicable to attestation
engagements contained in Government Auditing Standards, issued by the Comptroller General of
the United States and, accordingly, included obtaining an understanding of internal control over
financial reporting, testing, and evaluating the design and operating effectiveness of internal
control, and performing such other procedures as we considered necessary in the circumstances.
We believe that our examination provides a reasonable basis for our opinion.

Because of inherent limitations in any internal control, misstatements due to error or fraud may
occur and not be detected. Also, projections of any evaluation of internal control over financial
reporting to future periods are subject to the risk that the internal control may become inadequate
because of changes in conditions, or that the degree of compliance with the policies or procedures
may deteriorate.

In our opinion, management’s assertion that the Bureau maintained effective internal control over
financial reporting as of September 30, 2006 is fairly stated, in all material respects, based on the
criteria established in Internal Control – Integrated Framework issued by COSO.

In accordance with Government Auditing Standards, we are required to report findings of
deficiencies in internal control, violations of certain provisions of laws, regulations, and
contracts, noncompliance with which could have a direct and material effect on the determination
of the Bureau’s financial statement amounts, certain other matters and any fraud and illegal acts
that are more than inconsequential that come to our attention during our examination. We are also
required to obtain the views of management on those matters. We performed our examination to
express an opinion on management’s assertion, included in the accompanying “Management’s
Report on Internal Control Over Financial Reporting,” that the Bureau maintained effective
internal control over financial reporting as of September 30, 2006, based on the criteria
established in Internal Control – Integrated Framework issued by COSO and not for



                                                                16
                                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                a member of KPMG International, a Swiss cooperative.
the purpose of expressing an opinion on compliance and other matters; accordingly, we express
no such opinion. Our examination disclosed a condition that is required to be reported under
Government Auditing Standards involving internal control over financial reporting and its
operations that we consider to be a reportable condition. However, this reportable condition is
not considered to be a material weakness. The condition, along with the view of management, is
described in Exhibit I of this report.

Under standards issued by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control over financial reporting that, in our judgment, could adversely
affect the Bureau’s ability to record, process, summarize, and report financial data consistent with
the assertions by management in the financial statements. Material weaknesses are reportable
conditions in which the design or operation of one or more of the internal control components
does not reduce to a relatively low level the risk that misstatements caused by error or fraud, in
amounts that would be material in relation to the financial statements being audited, may occur
and not be detected within a timely period by employees in the normal course of performing their
assigned functions.

In accordance with Government Auditing Standards, we also noted certain additional matters that
we have reported to management of the Bureau in a separate letter dated October 27, 2006.




October 27, 2006




                                                17
                                                                                     Exhibit I

                        Fiscal Year 2006 Reportable Condition
Controls over inventory held by others

The Bureau has a contract with a vendor that requires the vendor to ship a certain raw material
directly to the Bureau’s paper provider for further processing before it can be shipped to the
Bureau. Since the Bureau does not track the vendor’s use of this material in paper production, the
Bureau assumes that all the purchases of these raw materials were used by its vendors in
production instantly and therefore, the Bureau records the purchase price as cost of goods sold at
the time the raw materials are shipped to the Bureau’s paper providers. However, at the end of FY
2006, the Bureau determined that there were approximately 28,000 pounds of this raw material
with historical cost of $3.8 million that had not been used by the vendor in the paper production
as of fiscal year end and as such, should have been reflected as inventory at fiscal year end in
accordance with U.S. generally accepted accounting principles. Accordingly, the Bureau adjusted
the inventory and cost of goods sold balances to properly report this amount in its financial
statements. The Bureau had approximately $2.3 million of such raw materials held by the vendor
as of September 30, 2005.

Without effective controls surrounding the tracking of the purchase and usage of such materials,
inventory and cost of goods sold reported in the Bureau’s financial statements could be materially
misstated.


Recommendations
We recommend that the Bureau:
   Implements controls to ensure that the purchase and usage of these type of materials are
    properly tracked and recorded in the Bureau’s financial statements in accordance with GAAP.
   Conducts periodic visits to the vendor’s facility and conduct an inventory count of the
    balance on hand specifically at fiscal year-end.


Management’s Response
We concur with the finding and will implement controls necessary to ensure that the
purchase and usage of these type of materials are properly tracked and recorded in the
Bureau’s financial statements, and will conduct periodic visits to vendors’ facilities to
conduct inventory counts of the balance on hand.




                                               18
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




             Independent Auditors’ Report on Compliance and Other Matters

The Inspector General, Department of the Treasury and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

We have audited the balance sheet of the Bureau of Engraving and Printing (Bureau) as of
September 30, 2006, and the related statements of operations and cumulative results of operations
and cash flows (hereinafter referred to as “financial statements”) for the year then ended, and
have issued our report thereon dated October 27, 2006. That report notes that the Bureau’s 2005
financial statements were audited by other auditors and that the Bureau implemented a new
accounting standard effective October 1, 2005.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 06-03, Audit Requirements for Federal Financial Statements.
Those standards and OMB Bulletin No. 06-03 require that we plan and perform the audit to
obtain reasonable assurance about whether the financial statements are free of material
misstatement.

The management of the Bureau is responsible for complying with laws, regulations, and contracts
applicable to the Bureau. As part of obtaining reasonable assurance about whether the Bureau’s
financial statements are free of material misstatement, we performed tests of the Bureau’s
compliance with certain provisions of laws, regulations, contracts, and other matters,
noncompliance with which could have a direct and material effect on the determination of the
Bureau financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 06-03. We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations,
and contracts applicable to the Bureau. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, disclosed no
instances of noncompliance or other matters that are required to be reported herein under
Government Auditing Standards or OMB Bulletin No. 06-03.

This report is intended solely for the information and use of the Bureau’s management, the
Department of the Treasury’s Office of Inspector General, OMB, the U.S. Government
Accountability Office, and the U.S. Congress and is not intended to be and should not be used by
anyone other than these specified parties.




October 27, 2006




                                                              19
                              KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                              a member of KPMG International, a Swiss cooperative.
